No. 20A136

SOUTH BAY UNITED PENTECOSTAL CHURCH, AND BISHOP ARTHUR HODGES III,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS THE GOVERNOR OF CALIFORNIA; XAVIER
BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF CALIFORNIA;
SANDRA SHEWRY, IN HER OFFICIAL CAPACITY AS ACTING CALIFORNIA PUBLIC HEALTH
OFFICER; WILMA J. WOOTEN, IN HER OFFICIAL CAPACITY AS PUBLIC HEALTH OFFICER,
COUNTY OF SAN DIEGO; HELEN ROBBINS-MEYER, IN HER OFFICIAL CAPACITY AS
DIRECTOR OF EMERGENCY SERVICES, COUNTY OF SAN DIEGO; AND WILLIAM D. GORE,
IN HIS OFFICIAL CAPACITY AS SHERIFF, COUNTY OF SAN DIEGO,
Respondents.

CERTIFICATE OF COMPLIANCE
I, Alex J. Luchenitser, a member of the Bar of this Court and counsel for the
amici on the accompanying Motion by Religious and Civil-Rights Organizations, with
Attached Proposed Amicus Curiae Brief in Support of Respondents and in Opposition
to Emergency Application for Writ of Injunction, for Leave (1) to File the Brief, (2) to
Do So in an Unbound Format on 8½-by-11-inch Paper, and (3) to Do So w ithout Ten
Days’ Advance Notice to the Parties, certify under Rule 33.1(h) of the Rules of this
Court that the motion contains 753 words and the brief contains 3,673 words,
excluding the parts that are exempted by Rule 33.1(d).

_________________________________________________

Alex J. Luchenitser

